IN THE UNITED STA?ES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10548-H

DONALD JONES,
Plaintiff - Appellant,
versus
BANK OF AMERICA,
STATE OF FLORIDA,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Donald Jones has failed to pay the filing and
docketing fees to the district court within the time fixed by the rules., effective October 15,
2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Gerald B. Frost, H, Deputy Clerk
FOR THE COURT - BY DIRECTION

ftPfctlP'X ft

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.ca! 1 .uscourts.gov

David J. Smith
Clerk of Court

October 15, 2020
Clerk - Middle District of Florida
U.S. District Court
U.S. Courthouse and Federal Building
2110 1ST ST
FORT MYERS, FL 33901
Appeal Number: 20-10548-H
Case Style: Donald Jones v. Bank of America, et al
District Court Docket No: 2:19-cv-00646-SPC-NPM
The enclosed copy of the Clerk's Entry of Dismissal for failure to prosecute in the above
referenced appeal is issued as the mandate of this court. See 11th Cir. R. 41-4.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H
Phone #: (404) 335-6182
Enclosure(s)

DIS-2 Letter and Entry of Dismissal

Case 2:19-cv-00646-SPC-NPM Document 18 Filed 02/05/20 Page 1 of 4 PagelD 74
\

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
DONALD JONES,
Plaintiff,
Case No.: 2:19-cv-646-FtM-38NPM

v.
BANK OF AMERICA and STATE OF
FLORIDA,
Defendants.
ORDER1

Before the Court is a sua sponte review of the Amended Complaint. (Doc. 11).
Because the Court does not have subject-matter jurisdiction, it must dismiss the case
without proceeding any further. Univ. of S. Ala. v. Am. Tobacco Co., 168 F.3d 405, 410
(11th Cir. 1999) (“Simply put, once a federal court determines that it is without subject
matter jurisdiction, the court is powerless to continue.”).
Federal courts have limited subject-matter jurisdiction. Kokkonen v. Guardian Life
Ins. Co. of Am., 511 U.S. 375, 377 (1994). So courts must inquire into jurisdiction sua
sponte whenever it may be lacking. Arbaugh v. Y&H Corp., 546 U.S. 500, 514 (2006).
Once a court determines it has no subject-matter jurisdiction, it “must dismiss the
compliant in its entirety.” Id. In federal court, there are two types of original jurisdiction:
(1) federal question under 28 U.S.C. § 1331; and (2) diversity under 28 U.S.C. § 1332(a).

1 Disclaimer: Documents hyperlinked to CM/ECF are subject to PACER fees. By using
hyperlinks, the Court does not endorse, recommend, approve, or guarantee any third
parties or the services or products they provide, nor does it have any agreements with
them. The Court is also not responsible fora hyperlink’s availability and functionality, and
a failed hyperlink does not affect this Order.

Case 2:19-cv-00646-SPC-NPM Document 18 Filed 02/05/20 Page 2 of 4 PagelD 75

First, to have subject-matter jurisdiction under § 1331, a question “arising under”
federal law must appear on the face of a well-pled complaint.

Holmes Grp., Inc. v.

Vornado Air Circulation Sys., Inc., 535 U.S. 826, 830-31 (2002). “A district court may
dismiss a federal question claim for lack of subject matter jurisdiction when: (1) the alleged
federal claim ‘clearly appears to be immaterial and made solely for the purpose of
obtaining jurisdiction;’ or (2) the claim is ‘wholly insubstantial and frivolous.’”

Douse v.

Metro Storage, LLC, 770 F. App’x 550, 550 (11th Cir. 2019) (quoting Blue Cross & Blue
Shield of Ala. v. Sanders, 138 F.3d 1347, 1352 (11th Cir. 1998)).
insubstantial and frivolous when they have “no plausible foundation.”

Claims are wholly
Foley v. Orange

Cty., 638 F. App’x 941, 943 (11th Cir. 2016) (quoting Sanders, 138 F.3d at 1352).
Even liberally construed,

any allegations

on a federal question

here are

insubstantial and frivolous. See id. at 945-46. Under Plaintiff’s theory, Defendant filed a
frivolous case in state court, which is “a violation of the plaintiff constitution right.” (Doc.
17 at 1) (errors in original).

This does not help clarify Plaintiff’s claims or—more

important—how any of them vests the Court with jurisdiction. The Amended Complaint
seeks “$650,000.00 for civil rights violation, age discriminate, Fraud, Suffening and pain.”
(Doc. 11 at 2) (errors in original). Yet it never sets out a cause of action or any basic facts
that could plausibly support a claim. Likewise, there is no alleged constitutional violation.
While Plaintiff’s claims are construed liberally, the Court cannot “serve as de facto
counsel” or “rewrite an otherwise deficient pleading.” Campbell v. Air Jam. Ltd., 760 F.3d
1165, 1168-69 (11th Cir. 2014) (citation omitted). Pro se or not, the Court cannot
“hypothesize federal claims” for litigants.

Caldwell v. U.S. Dep’t of Veterans Affairs, No.

2

Case 2:19-cv-00646-SPC-NPM

Document 18 Filed 02/05/20 Page 3 of 4 PagelD 76

8:14-cv-2708-T-33EAJ, 2015 WL 370012, at *3 (M.D. Fla. Jan. 27, 2015). And the Court
will not start doing so here.
Second, to have subject-matter jurisdiction under § 1332, the parties must be
completely diverse with an amount in controversy over $75,000.

Arbaugh, 546 U.S. at

513. Like the allegations on federal question, the Amended Complaint does not establish
diversity jurisdiction. Except for an alleged amount in controversy, nothing hints at either
citizenship or completely diversity of the parties.
Because the Amended Complaint fails to establish either basis, there is no subjectmatter jurisdiction and the Court must dismiss. E.g., Travaglio v. Am. Express Co., 735
F.3d 1266, 1268 (11th Cir. 2013) (“Without [sufficient jurisdictional] allegations, district
courts are constitutionally obligated to dismiss the action altogether if the plaintiff does
not cure the deficiency.”).
Shortly after Plaintiff sued, Judge Mizell conducted a preliminary screening under
28 U.S.C. § 1915. (Doc. 4). The Order explained all the deficiencies in Plaintiff’s original
complaint—including the failure to establish jurisdiction. (Doc. 4 at 3-4). Plaintiff had the
chance to amend with a warning that failing to correct the issues may lead to dismissal.
(Doc. 4 at 4). And while Plaintiff filed the Amended Complaint, it suffered from all the
same shortcomings. In fact, it is nearly identical. While the Court can forgive repeat typos
and grammatical missteps, the failure to make any effort to cure fatal pleading
deficiencies (particularly jurisdictional ones) buttresses the Court’s conclusion to dismiss.
Further these are the same problems Plaintiff had in a similar case before the Court.
Jones v. Bank of Am., No. 2:18-cv-00649-SPC-UAM (M.D. Fla.).

There, the Court

dismissed in part because Plaintiff, after receiving several chances, failed to establish

3

Case 2:19-cv-00646-SPC-NPM Document 18 Filed 02/05/20 Page 4 of 4 PagelD 77

subject-matter jurisdiction. Jones v. Bank of Am., No. 2:18-cv-649-FtM-38UAM, 2019 WL
2210678, at *3 (M.D. Fla. Mar. 25, 2019), report and recommendation adopted, 2019 WL
2206904 (Apr. 16, 2019). Considering all this, the Court concludes that dismissal of the
case is proper for lack of jurisdiction.
Accordingly, it is now
ORDERED:
1. The Amended Complaint (Doc. 11) is DISMISSED for lack of subject-matter
jurisdiction.
2. The pending Report and Recommendation (Doc. 16) is DENIED as moot.
3. The Clerk is DIRECTED to enter judgment, terminate any pending motions and
deadlines, and close the file.
DONE and ORDERED in Fort Myers, Florida this 5th day of February, 2020.

UNITED STATES DISTRICT JUDGE

Copies: All Parties of Record

4

Case 2:19-cv-00646-SPC-NPM Document 16 Filed 01/13/20 Page 1 of 4 PagelD 68

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
DONALD JONES
Plaintiff,
Case No:

v.

2:19-cv-646-FtM-38NPM

BANK OF AMERICA and STATE OF
FLORIDA,
Defendants.

REPORT AND RECOMMENDATION1
This matter is before the Court on pro se Plaintiff Donald Jones Affidavit of
Indigency (Doc. 2), construed as a Motion to Proceed In Forma Pauperis (“IFP”). When
a litigant seeks to proceed IFP, the Court is obligated to review the file pursuant to 28
U.S.C. § 1915.2 The Court previously found Plaintiff demonstrably unable to pay court
fees and costs. (Doc. 4). But by statute, the Court is required to dismiss the case if it
determines that the action is frivolous or malicious; if it fails to state a claim upon which

1

Disclaimer: Documents filed in CM/ECF may contain hyperlinks to other documents
or websites. These hyperlinks are provided only for users’ convenience. Users are
cautioned that hyperlinked documents in CM/ECF are subject to PACER fees. By
allowing hyperlinks to other websites, this Court does not endorse, recommend,
approve, or guarantee any third parties or the services or products they provide on their
websites. Likewise, the Court has no agreements with any of these third parties or
their websites. The Court accepts no responsibility for the availability or functionality of
any hyperlink. Thus, the fact that a hyperlink ceases to work or directs the user to
some other site does not affect the opinion of the Court.
2 This statute section governs IFP actions instituted by prisoners but has been interpreted
to apply to all litigants requesting leave to proceed IFP. Martinez v. Kristi Kleaners, Inc.,
364 F.3d 1305, 1306 n.1 (11th Cir. 2004).

Case 2:19-cv-00646-SPC-NPM

Document 16 Filed 01/13/20 Page 2 of 4 PagelD 69

relief may be granted; or if the complaint seeks monetary relief against a defendant who
is immune from such relief.

28 U.S.C. § 1915(e)(2)(B).

While the action appears both

frivolous and malicious,3 the Amended Complaint makes clear that Plaintiff fails to state
a claim upon which relief may be granted because he seeks federal-court review of a
state-court judgment - a claim for which this Court lacks jurisdiction.
The Amended Complaint recites some of the procedural history of Plaintiff’s statecourt proceedings concerning a foreclosure action against him and, as the Court can best
tell, complains about the entry of a default based on a failure to answer.
However, the Supreme Court of the United States created a jurisdictional rule
known as the Rooker-Feldman doctrine precluding lower federal courts from reviewing
state-court judgments.

See Castro v. Lewis, No. 17-15638, 2019 WL 2498803, at *3

(11th Cir. June 17, 2019).

This jurisdictional rule applies to a claim that (1) the state

court adjudicated; or (2) is “inextricably intertwined” with a state court judgment.

Target

Media Partners v. Specialty Mktg. Corp., 881 F.3d 1279, 1286 (11th Cir. 2018).

The

Rooker-Feldman doctrine “is confined to cases of the kind from which it acquired its name:
cases brought by state-court losers complaining of injuries caused by state-court
judgments rendered before the district court proceedings commenced and inviting district
court review and rejection of those judgments.

Exxon Mobil Corp. v. Saudi Basic Indus.

3 The Amended Complaint does not sufficiently allege either subject-matter jurisdiction
or a claim for relief, and “[t]he Court has no obligation to hypothesize federal claims, even
considering [Plaintiff’s] pro se status”). Caldwell v. U.S. Dept, of Veterans Affairs, No.
8:14-cv-2708-T-33EAJ, 2015 WL 370012, at *3 (M.D. Fla. Jan. 27, 2015). For these
reasons, the Court denied IFP status for this Plaintiff in a previous action concerning his
mortgage. See Jones v. Bank of America, No. 2:18-cv-00649-SPC-UAM (M.D. Fla. Apr.
16, 2019) (Doc. 53); see also id. at Doc. 57 (certifying the Plaintiffs appeal was not taken
in good faith).

-2-

Case 2:19-cv-00646-SPC-NPM Document 16 Filed 01/13/20 Page 3 of 4 PagelD 70

Corp., 544 U.S. 280, 284 (2005) (quotations omitted).

Such is the case here, and

Plaintiffs action is therefore barred for lack of jurisdiction.
Accordingly, it is recommended that Plaintiffs Amended Complaint be dismissed,
and that the Clerk be directed to terminate any pending motions and close the file.
Respectfully recommended in Chambers in Fort Myers, Florida on January 13,
2020.

NICHOLAS P. MIZELl
UNITED STATES MAGISTRATE JUDGE

NOTICE TO PARTIES
A party has fourteen days from this date to file written objections to the Report and
Recommendation’s factual findings and legal conclusions. A party’s failure to file written
objections waives that party’s right to challenge on appeal any unobjected-to factual
finding

or legal conclusion the district judge adopts from the

Recommendation.

See 11th Cir. R. 3-1.

-3-

Report and

Case 2:19-cv-00646-SPC-NPM Document 16 Filed 01/13/20 Page 4 of 4 PagelD 71

Copies furnished to:
Counsel of Record
Unrepresented Parties

-4-

Additional material
from this filing is
available in the

Clerk's Office.

